              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Compliance with the Memorandum
of Agreement Between the U.S.
Department of Energy and the
Energy Child Development Centers,
Inc.




OAS-M-14-04                          April 2014
                                  Department of Energy
                                    Washington, DC 20585

                                          April 7, 2014


MEMORADUM FOR THE CHIEF HUMAN CAPITAL OFFICER


FROM:                  Rickey R. Hass
                       Deputy Inspector General
                         for Audits and Inspections
                       Office of Inspector General

SUBJECT:               INFORMATION: Audit Report on "Compliance with the
                       Memorandum of Agreement Between the U.S. Department
                       of Energy and the Energy Child Development Centers, Inc."

BACKGROUND

The attached report presents the results of the audit of Compliance with the Memorandum of
Agreement (MOA) between the U.S. Department of Energy (Department) and the Energy Child
Development Centers, Inc. (ECDC, Inc.). The Office of Inspector General contracted with an
independent certified public accounting firm, Lopez and Company, LLP (Lopez), to determine if
ECDC, Inc. met the reporting and performance requirements of its December 16, 2002 MOA
with the Department for the period of December 16, 2002 through December 31, 2011.

In 1989, ECDC, Inc. was incorporated in the District of Columbia as a non-profit charitable
organization under Internal Revenue Service Code Section 501(c) (3). It was formed for the
purpose of managing the operation of the childcare centers at the Department's Forrestal
Building in Washington, DC and in Germantown, Maryland. In 2002, ECDC, Inc. entered into
the MOA with the Department to manage and operate the childcare centers through the use of a
separately contracted childcare provider (Contractor). The Contractor was responsible for the
day-to-day management and operation of the childcare centers, and ECDC, Inc. supported the
Department and the Contractor.

Under the terms of the MOA, ECDC, Inc. administered a tuition assistance program for
qualifying families whose children attended the childcare centers. Further, ECDC, Inc. was to
annually apply for inclusion in the Combined Federal Campaign and conduct at least two
childcare program marketing events each year. Also, ECDC, Inc. agreed to submit annual
financial reports that covered income, expenses, assets and liabilities; bi-annually audited
financial reports; annual Federal, state and local tax returns; and quarterly reports on tuition
assistance activities, including applicant and award information.

RESULTS OF AUDIT

Lopez concluded that ECDC, Inc. did not meet the reporting and performance compliance
requirements of the MOA. Due to a lack of documentation maintained by ECDC, Inc., Lopez
was unable to make a determination of ECDC Inc.'s compliance with 8 of 13 major risk areas.
                                                2

For the remaining key processes, Lopez concluded that ECDC, Inc. did not materially comply
with reporting and performance requirements. Specifically, Lopez found that ECDC, Inc. did
not:

   •   Document that it adequately screened recipients for tuition assistance eligibility in
       accordance with the MOA and General Services Administration (GSA) requirements.
       Per GSA, an applicant's family must meet certain income requirements. Additionally,
       only Federal employees are eligible for GSA funding, leaving non-Federal employee
       recipients to be funded from non-GSA sources. Lopez found that ECDC, Inc. could not
       provide documentation identifying and tracking applicants by Department, Federal or
       contractor status. Further, it could not provide a complete listing of tuition assistance
       recipients for the period reviewed.

   •   Provide both financial and program reporting as required by the MOA. The MOA
       required annual financial statements, tax returns, budgets and fundraising reports, along
       with quarterly reports on the tuition assistance program. ECDC, Inc. provided Lopez
       with only limited annual financial statements, IRS tax forms and bi-annually audited
       financial reports. It could not or did not provide any annual budgets for tuition assistance
       awards or annual summaries of promotional and marketing activities.

   •   Always ensure that its financial and tax information reports reflected actual financial
       activity. Lopez determined that ECDC, Inc. underreported funding from GSA tuition
       assistance by approximately $35,000 during the period. Further, ECDC, Inc. had several
       non-GSA funding sources that were not reported to the Department, accounting for
       approximately $59,171 in income during the period.

   •   Maintain documentation demonstrating that its Board of Directors was duly constituted
       according to its own bylaws. The bylaws require election by the ECDC, Inc.
       membership; however, the five Board members interviewed by Lopez indicated they
       were appointed to the Board. Further, the bylaws require two Board seats to be reserved
       for parent representatives. However, none of the current Board members qualify as
       parent representatives.

RECOMMENDATIONS

Due to the lack of reporting and performance compliance with the MOA, the overall
recommendation is that the Department considers terminating the MOA with ECDC, Inc. or
work with ECDC, Inc. to revise its governance structure and the MOA and enforce the
provisions of the MOA.

If the Department decides to continue working with ECDC, Inc. under the framework of a
revised governance structure and MOA, there are individual recommendations for the
Department, including:

   •   Work with ECDC, Inc. to develop procedures to ensure the provisions of the MOA and
       GSA Recycling Fund requirements are enforced and records are maintained;

   •   Work with ECDC, Inc. to revise the MOA and enforce its provisions regarding program
       and financial reporting;
                                                3


   •   Consider assisting ECDC, Inc. with the development of policies and procedures for an
       accounting system that adequately records all financial transactions; and

   •   Obtain documentation and/or a certification from ECDC, Inc. that it is maintaining its
       charitable organization status in accordance with its bylaws and the MOA Tax Exempt
       Status requirement.

MANAGEMENT RESPONSE AND AUDITOR COMMENTS

Management indicated that the findings presented by Lopez are regrettable. Article 10 of the
MOA provides that the agreement between the Department and ECDC, Inc. may be terminated
without notice by the Department for just cause. Consistent with Article 10 of the MOA, the
first recommendation outlined in the audit report and the lack of compliance and transparency of
the ECDC, Inc. Board, the Department will terminate the MOA with ECDC, Inc. effective
immediately. Although ECDC, Inc. is a 501 (c)(3) corporation, the MOA specifically states, "In
the event of termination under this Article, any funds not expended by ECDC shall be remitted to
the Department or to another non-profit organization whose purpose is to support the
Department's child care centers." As such, the Department will seek ECDC Inc.'s compliance
with this provision of the MOA to ensure that all funds raised for the purpose of supporting the
Department's child care centers are used accordingly.

Management's corrective actions are responsive to our recommendations.

PERFORMANCE AUDIT

Lopez conducted this performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the Department's Office of Inspector
General Audit Manual as appropriate. Government Auditing Standards require that Lopez plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on the audit objective.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which Lopez did not comply, in all
material respects, with the audit requirements. Lopez is responsible for the attached report dated
December 12, 2013, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Deputy Under Secretary for Science and Energy
    Chief of Staff
                                         Attachment




PERFORMANCE AUDIT REPORT OF COMPLIANCE
  WITH THE MEMORANDUM OF AGREEMENT
 BETWEEN THE U.S. DEPARTMENT OF ENERGY


                  AND THE

ENERGY CHILD DEVELOPMENT CENTERS, INC.

                    ____

             PERFORMED FOR

       U.S. DEPARTMENT OF ENERGY
      OFFICE OF INSPECTOR GENERAL



                 Prepared by

          Lopez and Company, LLP

        Report Date: December 12, 2013


     CONTRACT NUMBER: DE-IG0000017

      WORK ORDER NUMBER: 2013-01
                                                                                                             Attachment (continued)




                                                           Table of Contents



EXECUTIVE SUMMARY .......................................................................................................... 1

BACKGROUND ........................................................................................................................... 4

OBJECTIVES, SCOPE, AND METHODOLOGY ................................................................... 5

RESULTS ...................................................................................................................................... 7

Attachment .................................................................................................................................... 9
                                                                                     Attachment (continued)




EXECUTIVE SUMMARY
                                                                 December 12, 2013



Mr. Mark Mickelsen
Contracting Officer's Representative
U.S. Department of Energy
Office of Inspector General
1617 Cole Blvd.
Golden, CO 80401



Dear Mr. Mickelsen:

This report presents the results of our performance audit of the Energy Child
Development Center, Inc. (ECDC, Inc.), conducted to address the performance audit
objectives described below. We performed our work during the period of January 17,
2013 to June 28, 2013, and our results, reported herein, are as of June 28, 2013. We
conducted our on-site work from February 19, 2013 through February 22, 2013.
We conducted this performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the U.S. Department of
Energy (Department) Office of Inspector General (OIG) Audit Manual as appropriate.
Government Auditing Standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and recommendations based on our audit objective.
The objective of our performance audit was to determine if ECDC, Inc. met the reporting
and performance requirements of its December 16, 2002 Memorandum of Agreement
(MOA) with the Department for the period of December 16, 2002 through December 31,
2011. The MOA requirements are intended to ensure that the child development facilities
located at the Department's Headquarters and operated by the Department, are supported
by ECDC, Inc. to insure reliable, quality childcare is a first priority for employees of the
Department and other Federal agencies, and to the larger Department community.
The primary objectives were to:
      • Evaluate the design and operating effectiveness of internal controls for processes
        designated as risk areas;




                                                                                              1|Page
14728 Pipeline Ave. ▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                     Attachment (continued)




    • Assess expenditures for compliance with contract terms and conditions for
      processes designated as risk areas; and,

    • Assess the accuracy and validity of annual and periodic reporting in accordance
      with the MOA.
We identified key processes related to ECDC, Inc.'s compliance with MOA requirements
and selected 100% of all documentation available for review. We also corresponded
numerous times with the ECDC, Inc. Board of Directors Chairperson to discuss the
timing of the examination and the requested documentation. These communications were
in addition to those performed by the Department over the previous two years in an effort
to obtain requested documentation from ECDC, Inc. However, due to the inability of
ECDC, Inc. to provide sufficient documentation, we were unable to determine the level
of ECDC, Inc.'s compliance with the MOA in the following areas:
    1.   Non-Discrimination
    2.   Combined Federal Campaign
    3.   Center Assessment Needs
    4.   Promotion
    5.   Insurance
    6.   Board Training
    7.   Access to Centers
    8.   Suitability Background Checks
For the remaining key processes, we concluded that ECDC, Inc. did not materially
comply with the following reporting and performance requirements:
    1. ECDC, Inc. lacked appropriate procedures to ensure only eligible tuition
       assistance applicants received benefits;

    2. ECDC, Inc. did not comply with its program and financial reporting
       responsibilities to the Department, as required by the MOA;

    3. Financial and fundraising information reported in financial statements did not
       agree with information reported in tax filings; and,

    4. ECDC, Inc. lacked documentation that its Board of Directors was duly elected in
       accordance with its own By-laws.
Based upon the performance audit procedures performed and the results obtained, we
have met our performance audit objectives. We conclude that ECDC, Inc. did not have
the internal control systems in place in the recording and maintenance of documentation
and did not meet the reporting and performance compliance requirements of the MOA.
Due to this lack of performance, we recommend that the Department consider (1)




                                                                               2|Page
                                                                      Attachment (continued)




terminating the MOA with ECDC, Inc. or (2) work with ECDC, Inc. to revise its
governance structure and enforce the provisions of the MOA.
This performance audit did not constitute an audit of financial statements in accordance
with auditing standards generally accepted in the United States of America and
Government Auditing Standards.
Sincerely,




Lopez and Company, LLP




                                                                                3|Page
                                                                     Attachment (continued)
Lopez and Company, LLP                            Performance Audit Report of ECDC, Inc.
BACKGROUND

In 1989, ECDC, Inc. was incorporated in the District of Columbia as a non-profit
charitable organization under Internal Revenue Service Code Section 501(c)(3). The
corporation was formed for the purpose of managing the operation of the childcare
centers (Centers) located on the property of the Department's Forrestal Building in
Washington, DC and its Germantown, Maryland facility.
In 2002, ECDC, Inc. entered into a MOA with the Department. Under the MOA, the
Department was to manage and operate the Centers through the use of a separately
contracted childcare provider (Contractor). The Contractor was to be directly responsible
for the day-to-day management and operation of the Centers, including development of
the educational curricula and programs, and ECDC, Inc. would provide a supporting role
to the Department and the Contractor.
Under the terms of the MOA, ECDC, Inc. was specifically responsible for administering
a tuition assistance program for qualifying families whose children attended the Centers.
Additionally, ECDC Inc. was to annually apply for inclusion in the Combined Federal
Campaign (the official Federal charitable contributions program) and conduct at least two
childcare program marketing events each year. Furthermore, ECDC, Inc. agreed to
provide the Department with annual financial reports that covered income, expenses,
assets, and liabilities; biennially audited financial reports; annual Federal, state and local
tax returns; and quarterly reports on tuition assistance activities, including applicant and
award information.
Consistent with GSA policies and guidance on the Agency, Board, and Contractor
relationship, ECDC, Inc. received GSA Recycling Funds to administer tuition assistance
to families. The Department confirmed that ECDC, Inc. received these funds. Under
GSA guidelines for Recycling Funds, only Federal employees and their dependents are
eligible for tuition assistance funded with Recycling Funds. Additionally, ECDC, Inc.
stated that they may provide tuition assistance to non-Federal employees from other
sources of funding.
Since 2002, ECDC, Inc. had provided the Department with only limited information and
documentation required under the MOA. During the life of the MOA, the Department
attempted to enforce its terms without reciprocal action or response from ECDC, Inc.
The Department documented these attempts in the form of emails and certified mail
requests. In 2011, due to ECDC, Inc.'s lack of responsiveness to the Department's
multiple requests for the required information, the Department ceased providing
recycling funds, assumed ECDC, Inc.'s responsibility for the tuition assistance program
and requested that ECDC, Inc. return all unused GSA Recycling funds to the Department.
The Department confirmed receipt of the returned funds. Since 2011, the Department has
been fully responsible for the tuition assistance program.




                                                                                   4|Page
                                                                    Attachment (continued)
Lopez and Company, LLP                           Performance Audit Report of ECDC, Inc.
OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES
Lopez and Company, LLP (Lopez and Company) was engaged by the OIG to audit
ECDC, Inc.'s compliance with the financial and performance requirements under the
MOA. The primary objectives were to:
   •   Evaluate the design and operating effectiveness of internal controls for processes
       designated as risk areas;

   •   Assess expenditures for compliance with contract terms and conditions for
       processes designated as risk areas; and,

   •   Assess the accuracy and validity of annual and periodic reporting in accordance
       with the MOA.

SCOPE
Under the December 16, 2002 MOA between ECDC, Inc. and the Department, ECDC,
Inc. was to perform certain assistance and promotional activities, as well as provide
financial assurances to the Department on a quarterly and annual basis, including regular
reporting on the awards of tuition assistance funds to qualified recipients. During the life
cycle of the MOA, the Department requested ECDC, Inc. to comply with the terms of the
MOA and did not receive satisfactory action or response from ECDC, Inc. Due to the
inability of ECDC, Inc.to provide sufficient documentation to the Department from 2002
through December 31, 2011, the Department requested the OIG conduct an audit to
determine whether ECDC, Inc. complied with its responsibilities, including the reporting
requirements, under the MOA.
Lopez and Company was engaged by the OIG to conduct the audit, which included
obtaining an understanding of the policies, requirements, and processes of selected risk
areas in order to identify key internal controls. The scope included a review of tuition
assistance expenses reported to the Department from December 16, 2002, through
December 31, 2011. Additionally, Lopez and Company applied select internal control,
compliance, analytical and substantive testing procedures for the following risk areas:
    1. Fundraising Activities
    2. Tuition Assistance
    3. Non-Discrimination
    4. Combined Federal Campaign
    5. Center Assessment Needs
    6. Promotion
    7. Annual Financial Reports and Tax Returns
    8. Insurance
    9. Periodic Reporting to the Department
    10. Board Training
    11. Board Practices
    12. Access to Centers
    13. Suitability Background Checks

                                                                                 5|Page
                                                                   Attachment (continued)
Lopez and Company, LLP                          Performance Audit Report of ECDC, Inc.
With the exception of Fundraising Activities, the risk areas were defined by the
individual compliance requirements contained in the MOA. Fundraising activities were
identified as an additional risk because the majority of the Board members of ECDC, Inc.
are Department employees and therefore, a risk was identified that ECDC, Inc. might be
viewed by the public as an extension of the Department.
The source of documentation and information for testing and review were provided by
the Board of ECDC, Inc. and the Department. No Information Technology (IT) controls
were tested as a part of this audit.
Lopez and Company reviewed all documentation provided by ECDC, Inc. and the
Department.

METHODOLOGY
Lopez and Company conducted this performance audit in accordance with Generally
Accepted Government Audit Standards for performance audits, as prescribed in the most
current version of the Yellow Book issued by the Comptroller General of the United
States. Those standards require that Lopez and Company plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. As a basis for Lopez and Company's
performance audit, the audit team used the Memorandum of Agreement, and GSA
guidelines for Recycling Funds to determine whether ECDC, Inc. was in compliance with
the Memorandum of Agreement.
To meet the performance audit objectives, the audit team:
   •   Obtained existing documentation and conducted interviews of the ECDC, Inc.'s
       Board of Directors to obtain an understanding of ECDC, Inc.'s financial reporting,
       revenue, expense, and tuition assistance program processes related to the MOA;

   •   Obtained and documented applicable laws, regulation, and contract documents;

   •   Obtained and documented our understanding of the policies and procedures and
       key controls for the selected processes. Our procedures included but were not
       limited to the completion of interviews of the Board and inspection of
       documentation. Sufficient documentation was not available for all processes
       therefore, the audit team's use of inquiries of the Board was considered sufficient
       within the scope of the engagement. These procedures are the basis for evaluating
       the design and implementation of internal controls for processes designated as
       risk areas;

   •   Obtained a listing of tuition expenditures to test for compliance with the MOA
       and GSA Recycling Fund guidelines; and,

   •   Performed procedures to determine the accuracy and timeliness of periodic and
       annual reporting in accordance with the MOA, by conducting a reconciliation of
       financial audit reports to tax returns and information from the Department.

We performed procedures in the following key risk areas:

                                                                               6|Page
                                                                   Attachment (continued)
Lopez and Company, LLP                          Performance Audit Report of ECDC, Inc.
   1.    Tuition Assistance
   2.    Annual Financial Reports and Tax Returns
   3.    Periodic Reporting to the Department
   4.    Fundraising Activities
   5.    Board Practices
We did not perform procedures in the following key risk areas due to ECDC, Inc.'s
inability to provide documentation:
    1.   Non-Discrimination
    2.   Combined Federal Campaign
    3.   Center Assessment Needs
    4.   Promotion
    5.   Insurance
    6.   Board Training
    7.   Access to Centers
    8.   Suitability Background Checks
Lopez and Company, LLP held an entrance conference with five of seven ECDC, Inc.
Board Members on March 5, 2013. During the meeting, we requested information and
documentation for the above eight areas, but no information was provided by the Board.
The Board indicated that documentation for these items was not available. We discussed
the remaining activities of the Board of ECDC, Inc. and examined available
documentation regarding compliance with the MOA for each year from 2002 through
2011.

RESULTS

When conducting the performance audit, Lopez and Company gathered sufficient and
appropriate audit evidence to support its findings and conclusions. All findings include
the criteria, condition, cause, effect, and recommendation and were submitted to
Department management for review and comment. The criteria, condition,
recommendation, management response, and auditor response (if applicable) is provided
for each finding in the Attachment to this report. Lopez and Company summarized the
findings identified while conducting the audit; the following is a listing of findings
discovered which we consider to be material weaknesses and material non-compliance as
a result of testing:
   1. ECDC, Inc. did not have sufficient procedures to ensure only eligible tuition
      assistance applicants received benefits;

   2. ECDC, Inc. did not materially comply with its program and financial reporting
      responsibilities to the Department, as required by the MOA;

   3. Financial and fundraising information reported in financial statements did not
      agree with information reported in tax filings; and,

   4. ECDC, Inc. was not able to provide documentation that its Board of Directors was
         duly elected in accordance with its own By-laws.


                                                                              7|Page
                                                                   Attachment (continued)
Lopez and Company, LLP                          Performance Audit Report of ECDC, Inc.
Lopez and Company concludes that there are material weaknesses in internal controls
over the processes designated as risk areas, tuition assistance expenditures are not in
compliance with grant terms and conditions for processes designated as risk areas, and
quarterly and annual reporting is not accurate and valid, and in accordance with the
Memorandum of Agreement.

OVERALL RECOMMENDATION

We conclude that the inability of ECDC, Inc. to provide sufficient documentation and the
severity of the findings detailed in the Attachment, ECDC, Inc. did not meet the reporting
and performance compliance requirements of the MOA. Specifically, we were unable to
make a determination of ECDC Inc.'s compliance with eight of 13 major risk areas due to
a lack of documentation. For the remaining key processes, we concluded that ECDC,
Inc. did not materially comply with reporting and performance requirements. Due to this
lack of performance, we recommend that the Department consider (1) terminating the
MOA with ECDC, Inc. or (2) work with ECDC, Inc. to revise its governance structure
and the MOA and enforce the provisions of the MOA.




                                                                                8|Page
                                                                        Attachment (continued)

                                                                                 Attachment


     FINDINGS, RECOMMENDATIONS, AND MANAGEMENT RESPONSE


                      FINDING #1 – Tuition Assistance Eligibility
Criteria
Under GSA regulations, an applicant's family must meet certain income requirements to
be eligible for tuition assistance. Additionally, only Federal employees are eligible for
tuition assistance funded with GSA recycling funds.
Condition
ECDC, Inc. could not document that it adequately screened recipients for tuition
assistance eligibility in accordance with the MOA and GSA Recycling Fund
requirements. We reviewed ECDC, Inc.'s tuition assistance promotional materials, which
included a tuition assistance application, and we conducted interviews of the Board
members responsible for reviewing and approving tuition assistance applications. During
our interviews of Board members, they stated that the organization used the GSA Model
C process for determining eligibility for GSA recycling funds. GSA Model C refers to
the Appendixes in the GSA Child Care Board of Directors Child Care Resource Book
2005, which, among other things, contains a Model Memorandum of Understanding and
Model Contract. Chapter 9 of the guide discusses the Federal eligibility requirements for
GSA recycling funds. During our discussion with the Board, they noted that Department
and Federal employees were given preference for Tuition Assistance; however, they
could not provide documentation that identified and tracked applicants by Department,
Federal or contractor status.
We obtained a schedule of tuition assistance receipts/payments for the period of October
21, 2002, through November 29, 2011. This schedule listed all checks issued for tuition
assistance during the period; however, it failed to identify recipient names for many of
the tuition assistance disbursements. Moreover, ECDC, Inc. indicated that they could not
produce the applicant files for every applicant since 2002. ECDC, Inc. did provide us
with one applicant file that included documentation on the applicant's financial eligibility,
and the file identified the applicant as a non-Federal employee.
Cause
For the period during which ECDC, Inc. was awarded financial assistance using GSA
Recycling funds, ECDC, Inc. lacked formalized procedures that would provide continuity
of records despite changes in the personnel responsible for determining tuition assistance
eligibility. ECDC, Inc. did not employ paid staff nor did it have offices where
documentation was centrally located and maintained. The Board members were
volunteers who performed all activities/functions. As Board members changed, there
was no process to ensure that documentation was transferred to new Board members
and/or maintained in a central location. As a result, ECDC, Inc. did not have complete
records of tuition assistance recipients or how eligibility for assistance was determined
and awarded.



                                                                                  9|Page
                                                                        Attachment (continued)

                                                                         Attachment (cont.)

During the period reviewed, the Department assumed ECDC, Inc.'s role in awarding
tuition assistance from GSA recycling funds without modifying the MOA.
Effect
The lack of formal procedures significantly increases the risk that ineligible applicants for
tuition assistance could receive benefits. This includes the risk that non-Federal
applicants received tuition assistance benefits paid from GSA Recycling Funds, in
violation of GSA requirements and the MOA.
Recommendation
If the Department decides to continue its relationship with ECDC, Inc., we recommend
the Department work with ECDC, Inc. to develop procedures to ensure compliance with
the provisions of the MOA and GSA Recycling Fund requirements and that records are
properly maintained.
Management Response
The Department considers this finding regrettable. Consistent with Article 10 of the
MOA, the Department has decided to terminate the MOA with ECDC, Inc. effective
immediately.
Auditor Comment
The Department's proposed action is considered responsive to our recommendation.




                                                                                 10 | P a g e
                                                                        Attachment (continued)

                                                                         Attachment (cont.)

          FINDING #2 – Program and Financial Reporting to the Department
Criteria
The MOA required that ECDC, Inc. provide financial statements, tax returns, budgets,
and fundraising reports on an annual basis, and quarterly reports on the tuition assistance
program, including the following:
    1.   Annual Financial Statements
    2.   Annual Tax Return Form 990
    3.   Bi-Annual Audited Financial Report
    4.   Annual Budget for Tuition Assistance Awards
    5.   Annual Summary of Promotional and Marketing Activities
    6.   Quarterly Report on Applicants for Tuition Assistance
    7.   Quarterly Report of ECDC, Inc. Awards of Tuition Assistance
Condition
ECDC, Inc. did not provide both financial and program reporting as required under the
MOA with the Department.
Despite a number of requests from the Department's Office of Human Resources Services
(OHRS), which acts as liaison between the Department and ECDC, Inc., ECDC, Inc. did
not provide the Department with many of the above documents required by the MOA.
Likewise, our own requests for documentation from ECDC, Inc. on this audit resulted in
us obtaining only limited annual financial statements, IRS tax forms, and bi-annually
audited financial reports. ECDC, Inc. was unable to or did not provide any annual
budgets for tuition assistance awards or annual summaries of promotional and marketing
activities.
Cause
The MOA contained some terms that are no longer relevant to ECDC Inc.'s role in the
operation of the Centers. Specifically, the Department no longer provides ECDC, Inc.
with GSA recycling funds and ECDC, Inc. has remitted all unused GSA recycling funds
to the Department. Because of this, and per discussions with ECDC, Inc., the Board
believed that the MOA no longer bound ECDC, Inc. and that the MOA was no longer
enforceable. In addition, the Board viewed the MOA as invalid because:

   •     None of the current Board members signed the MOA.
   •     The Board asserted that the Department has not lived up to its responsibilities
         under the MOA.

Effect
The lack of financial and non-financial reporting implies a lack of accountability and
increases the risk of fraud, waste and abuse. Additionally, the lack of Department
oversight and/or Department approval of the financial and fundraising activities of
ECDC, Inc increases the Department's risk of liability associated with any such fraud,
waste, and abuse.


                                                                                 11 | P a g e
                                                                     Attachment (continued)

                                                                      Attachment (cont.)

Recommendation
If the Department decides to continue its relationship with ECDC, Inc., we recommend
the Department work with ECDC, Inc. to revise the MOA and enforce its provisions.
Management Response
The Department considers this finding regrettable. Consistent with Article 10 of the
MOA, the Department has decided to terminate the MOA with ECDC, Inc. effective
immediately.
Auditor Comment
The Department's proposed action is considered responsive to our recommendation.




                                                                              12 | P a g e
                                                                      Attachment (continued)

                                                                       Attachment (cont.)

               FINDING #3 – Discrepancy of Reported Versus Actual
                      Financial and Fundraising Activities
Criteria
The Memorandum of Agreement between the Department of Energy and ECDC, Inc.
requires the submission of periodic fundraising and financial reports, which cover income
and expenditures, assets and liabilities at least annually. Furthermore, ECDC Inc's
financial books and records are required to be audited, and the reports submitted to the
Department, by an outside independent auditors or accountant on a bi-annual basis.
Condition
ECDC, Inc. did not always ensure that its financial and tax information reports reflected
actual financial activity. We compared the Schedule of Revenues reported on IRS Form
990 with the schedule of funds reportedly received from the GSA recycling program and
determined that ECDC, Inc. has underreported funding from the GSA Recycling funds by
a total amount of $34,990.90 for the period of 2002 through 2011.
Based on our review of revenues reported on the IRS Form 990 for each year from 2002-
2011, we found that ECDC, Inc. had several funding sources in addition to GSA
Recycling Funds that were not reported to the OHRS. Based on discussions with ECDC,
Inc., Board fundraising activities have been limited because the Department has restricted
such activities. However, during this same period, ECDC, Inc. reported income of
$59,171 from both corporate and individual non-GSA sources.
Additionally, ECDC, Inc. indicated that all non-GSA Recycling Fund revenues are funds
that could be spent at ECDC, Inc.'s discretion and are not subject to the Department's
oversight. During our discussion with the Board, the Board indicated that ECDC, Inc.
maintained separate bank accounts for these funds. These bank accounts were not subject
to this audit.

Cause
During the period for which ECDC, Inc. had authority over the tuition assistance
program, ECDC, Inc. did not have an accounting system that ensured that all financial
information was properly and completely recorded and reported.

Effect
ECDC, Inc. did not report all sources of income to the IRS ($34,990) or the Department
($59,171). The lack of an appropriate accounting system capable of reporting all
financial activity increases the risk of fraud, waste, and abuse. Additionally, because
most of the Board members of ECDC, Inc. are Department employees, there is a higher
risk that the Department could be perceived as being liable for any instances of fraud,
waste, and abuse.




                                                                              13 | P a g e
                                                                     Attachment (continued)

                                                                       Attachment (cont.)

Recommendation
If the Department decides to continue its relationship with ECDC, Inc., we recommend
that the Department consider assisting ECDC, Inc. with the development of policies and
procedures for an accounting system, which adequately records all financial transactions.
Management Response
The Department considers this finding regrettable. Consistent with Article 10 of the
MOA, the Department has decided to terminate the MOA with ECDC, Inc. effective
immediately.
Auditor Comment
The Department's proposed action is considered responsive to our recommendation.




                                                                              14 | P a g e
                                                                      Attachment (continued)

                                                                        Attachment (cont.)

            FINDING #4 – Election Process of ECDC, Inc. Board Members
Criteria
According to ECDC, Inc.'s Articles of Incorporation and Corporate By-Laws, the Board
is to be elected by the Members of ECDC, Inc., Additionally, the By-Laws require that
"two seats on the Board of Directors shall be reserved for one (1) parent representative
from Germantown and one (1) parent representative from Forrestal.
Condition
In our discussions with five of the seven ECDC Board Members and Officers, the five
Board members stated that each was appointed to the Board and not elected. Per the
Corporate By-Laws the Members of ECDC, Inc. are the parents of children having been
enrolled at the Centers. Currently, none of the current Board members qualifies as parent
representatives.

Cause
The Board and Officers are not following its Corporate By-Laws regarding membership
requirements and the requirement to elect Board Members into office.
Effect
If members of the Board have not been elected and do not qualify as members of ECDC,
Inc. under the Articles of Incorporation and Corporate By-Laws, then Board Members
have been fundraising, making tuition assistance awards, and representing the corporation
without the authority to do so.
If ECDC, Inc. is found to be non-compliant with its own by-laws, there is a risk that its
charitable organization status could be jeopardized. ECDC, Inc.'s MOA with the
Department requires that it maintain its corporate status as a charitable organization.
Further, because Department employees act as Board members, the Department may be
viewed by the public as not providing adequate oversight of the organization and/or its
employees.

Recommendation
If the Department decides to continue its relationship with ECDC, Inc. and its current
governance structure, we recommend that the Department obtain documentation and/or a
certification from ECDC, Inc. that ECDC, Inc. is maintaining its charitable organization
status in accordance with its by-laws and the MOA Tax Exempt Status requirement.
Management Response
The Department considers this finding regrettable. Consistent with Article 10 of the
MOA, the Department has decided to terminate the MOA with ECDC, Inc. effective
immediately.
Auditor Comment
The Department's proposed action is considered responsive to our recommendation.



                                                                               15 | P a g e
                                                                   IG Report No. OAS-M-14-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
